NO. 19-1116

In the
Supreme Court of the United States
LINKEDIN CORPORATION,
Petitioner,
V.
HIQ LABS, INC.,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar,
opposing counsel have consented to electronic service, and that, on this 7th day of
June, 2021, copies of the Supplemental Brief for the Petitioner were sent to:
R. Corey Worcester
Quinn Emanuel Urquhart & Sullivan LLP
51 Madison Avenue
22nd Floor
New York, NY 10010
coreyworcester@quinnemanuel.com
Respectfully submitted,

Arn Jacobsen

